No. 20-794
In the

Supreme Court of the United States
__________________
SERVOTRONICS, INC.,
Petitioner,
v.
ROLLS-ROYCE PLC AND THE BOEING COMPANY,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

__________________
BRIEF OF THE INTERNATIONAL INSTITUTE
FOR CONFLICT PREVENTION &
RESOLUTION AS AMICUS CURIAE IN
SUPPORT OF PETITIONER
__________________
JOHN B. PINNEY
Counsel of Record
ROULA ALLOUCH
GRAYDON HEAD & RITCHEY LLP
312 Walnut Street, Ste. 1800
Cincinnati, OH 45202
(513) 629-2730
jpinney@graydon.law
Counsel for Amicus Curiae
January 5, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
BRIEF OF THE INTERNATIONAL INSTITUTE
FOR CONFLICT PREVENTION &
RESOLUTION, INC. AS AMICUS CURIAE IN
SUPPORT OF PETITION FOR WRIT OF
CERTIORARI OF SERVOTRONICS, INC.. . . . . 1
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . 1
INTRODUCTION AND SUMMARY OF
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
I. The Sixth Circuit’s September 2019 decision
creating the circuit split on the question of
whether Section 1782(a) allows district courts to
render assistance for private international
arbitral tribunals presents a highly important
issue of federal law that can only be resolved by
the Supreme Court . . . . . . . . . . . . . . . . . . . . . . . 10
II. The Court Should Set the Case for Argument
This Term to Avoid the Likelihood that It Will
Become Moot Prior to Decision . . . . . . . . . . . . . 17
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

ii
TABLE OF AUTHORITIES
Cases
Abdul Latif Jameel Trans. Co. Ltd. V. FedEx Corp.,
939 F. 3d 710 (6th Cir. 2019) . . . . . . . 7, 12, 16, 19
El Paso Corp. v. La Comision Ejecutiva Hidroelectrica
Del Rio Lempa,
341 Fed. Appx. 31 (5th Cir. 2009) . . . . . . . . . . . . 7
EWE Gasspeicher GmbH v. Halliburton Co., Third Circuit
No. 20-1830 (argued December 9, 2020) . . 6, 7, 9, 19
In re Children’s Invest. Fund Found. (UK),
363 F. Supp. 3d 361 (S.D.N.Y. 2019) . . . . . . . . . 14
In re Consorcio Ecuatoriano de Telecomunicaciones
S.A. v. JAS Forwarding (USA), Inc., 685 F.3d
987 (11th Cir. 2012) vacated and superseded
by 747 F.3d 1262 (11th Cir. 2014) . . . . . . . . . 7, 11
In re Guo v. Deutsche Bank Securities Inc.,
965 F.3d 96 (2d Cir. 2020) . . . . 7, 9, 13, 14, 16, 18
In re Hallmark Capital Corp.,
534 F. Supp. 2d 951 (D. Minn. 2007) . . . . . . . . . 11
In re: HRC-Hainan Holding Co., LLC, Ninth Circuit
No. 20-15371 (argued September 14, 2020)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 7, 9, 19
In re Kleimar N.V.,
220 F. Supp. 3d 517 (S.D.N.Y. 2016) . . . . . . . . . 14
In re Roz Trading Ltd.,
469 F. Supp. 2d 1221 (N.D. Ga. 2006) . . . . . . . . 11

iii
In re: Storag Etzel GmbH v. Baker Hughes Holdings
LLC, Third Circuit No. 20-1833 (argued December
9, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 7, 9, 19
Intel Corp. v. Advanced Micro Devices, Inc.,
542 U.S. 241 (2004). . . . . . . . . . . . . . 10, 11, 13, 17
National Broadcasting Co., Inc. v. Bear Stearns &
Co.,165 F.3d 184 (2d Cir. 1999) . . . . . 7, 11, 13, 16
Republic of Kazakhstan v. Biedermann Int’l.,
168 F.3d 880 (5th Cir. 1999). . . . . . . . 7, 11, 13, 16
Servotronics, Inc. v. Rolls-Royce, PLC,
975 F.3d 689 (7th Cir. 2020). . . . . . . . . . . 7, 16, 18
Servotronics, Inc. v. The Boeing Co.,
954 F.3d 209 (4th Cir. 2020). . . . . . . . . . . 7, 13, 14
United States. v. Sanchez-Gomez,
138 S.Ct. 1532 (2018) . . . . . . . . . . . . . . . . . . . . . 19
United Tech. Intern., v. Malev Hungarian Airlines,
506 U.S. 861 (1992). . . . . . . . . . . . . . . . . . . . . . . 17
Statute
28 U.S.C. § 1782(a). . . . . . . . . . . . . . . . . . . . . . passim
Other Authorities
“New York Arbitration Week”, https://nyarbitration
week.com/fordham-conference-on-internationalarbitration-and-mediation/. . . . . . . . . . . . . . . . . 16

iv
Using the U.S. Courts to Obtain Discovery Here and
Abroad for Foreign and International
Proceedings, Frederick Acomb, 99 Mich. B.J. 32
(Sept. 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Comment, Authorization of Discovery in
International Commercial Arbitration:
Demystifying the Sixth Circuit’s Statutory
Construction of 28 U.S.C. § 1782(a), Jason
Arendt, 9 Am. Univ. Bus. L. Rev. 417 (2020). . . . . 15
Alejandro A. Nava Cuenca, Note, Debunking the
Myths: International Commercial Arbitration
and Section 1782(a), 45 Yale J. Int’l. L.
(forthcoming Jan. 2021). . . . . . . . . . . . . . . . . . . 15
Case Note; Statutory Interpretation – Textualism –
Sixth Circuit Holds That Private Commercial
Arbitration is a Foreign or International
Tribunal – In re: Application to Obtain Discovery
for Use in Foreign Proceedings, 939 F.3d 710
(6th Cir. 2019), 133 Harv. L. Rev. 2627 (June
2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Circuit Split on 28 U.S.C. § 1782: Are U.S. Courts
Trending Against Discovery for Foreign Private
Arbitrations?, Dana MacGrath, Nilufar Hossan,
Kluwer Arbitration Blog, Oct. 4, 2020 . . . . . 12, 13
Second Circuit Rules in Hanwei Guo that Section
1782 Does Not Apply to Private Commercial
Arbitrations, Dana C. MacGrath, ICC Dispute
Resolution Bulletin, 2020, Issue 3, Global
Developments . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

v
Obtaining Evidence for Use in International
Tribunals under 28 U.S.C. § 1782, Edward M
Mullins and Lawrence W. Newman, editors,
JurisNet, LLC (2020), Chapter 8, Use of Section
1782 in Aid of Arbitration, David Zaslowsky and
Kristina Fridman . . . . . . . . . . . . . . . . . . . . . . . . 15
Update: The Section 1782 Conflict Intensifies as the
International Arbitration Issues Goes to the
Supreme Court, 38 Alternatives to High Cost
Litigation 125, Sept. 2020, John B. Pinney . . . 13
Will the Supreme Court Take Up Allowing
Discovery under Section 1782 for Private
International Arbitrations?, 38 Alternatives to
the High Cost of Litigation 103, July-Aug. 2020,
John B. Pinney . . . . . . . . . . . . . . . . . . . . . . . . . 13
International Litigation under the United States
Code, 65 Columbia L. Rev. 1015 (1965), Prof.
Hans Smit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Practicalities and Commercial Realities: § 1782 and
its Applications to Private Commercial
Arbitration, Jenifer Sandlin, 44 J. Legal Prof.
223 (Spring 2020) . . . . . . . . . . . . . . . . . . . . . . . . 12
Compelling U.S. Discovery in International
Franchise Arbitrations: The (F)utility of Section
1782 Applications, Matthew J. Soroky, 39
Franchise L. J. 185 (Fall 2019) . . . . . . . . . . . . . 12
Yanbai Andrea Wang, Exporting American
Discovery, 87 U. Chi. L. R. 2089 (Nov. 2020) . . . . . 15

1
BRIEF OF THE INTERNATIONAL INSTITUTE
FOR CONFLICT PREVENTION &
RESOLUTION, INC. AS AMICUS CURIAE IN
SUPPORT OF PETITION FOR WRIT OF
CERTIORARI OF SERVOTRONICS, INC.
The International Institute for Conflict Prevention
& Resolution, Inc. (“CPR”) respectfully submits this
amicus curiae brief in support of the petition for writ of
certiorari filed herein by Servotronics, Inc.1
INTEREST OF AMICUS CURIAE
CPR is an independent, 501(c)(3) not-for-profit
organization formed in 1977, among other things, to
identify alternatives to litigation and resolve legal
conflicts more effectively and efficiently. The mission of
CPR is to manage conflict to enable purpose. CPR does
this by spearheading innovation and promoting
excellence in dispute prevention and resolution through
two arms: the CPR Institute and CPR Dispute
Resolution.
The CPR Institute is a think tank whose members
include arbitrators, mediators, companies, law firms,
government practitioners, and academics, and who
share best practices and develop innovative tools and

1

No counsel for any party authored this brief in whole or in part,
no party or party’s counsel has made a monetary contribution
intended to fund the preparation and submission of this brief, and
no person or entity, other than the amicus curiae or its counsel,
made a monetary contribution to the preparation or submission of
this brief. Amicus curiae notified the parties of its intention to file
this brief more than ten days before the due date, and all parties
have given written consent to the filing of this brief.

2
resources for dispute prevention and resolution. Among
its efforts, CPR and its Arbitration Committee, which
comprises former judges, in-house counsel, law firm
attorneys, arbitrators, and academics, have developed
administered and non-administered arbitration rules
for both international and domestic disputes, model
clauses, best practice guides and tools focused on
ensuring the efficiency, fairness and cost-effectiveness
of arbitrations, with the objective of fostering
resolution. Among the many tools are:
• CPR Protocol on Disclosure of Documents &
Presentation of Witnesses in Commercial
Arbitration;
• CPR Corporate Counsel Manual for CrossBorder Dispute Resolution;
• 2019 CPR Rules for Administered Arbitration of
International Disputes;
• 2018 CPR International Non-Administered
Arbitration Rules; and
• CPR Fast Track Rules For Administered
Arbitration of International Disputes.
CPR Dispute Resolution provides neutrals for and
administers ADR proceedings, such as arbitration,
mediation, early neutral evaluation, dispute review
boards and minitrials. CPR’s arbitrators and mediators
conduct arbitrations and mediations pursuant to the
rules, procedures and protocols generated by the CPR
Institute.

3
A complete overview of the CPR Institute’s
initiatives and conflict resolution tools, and CPR
Dispute Resolution’s services, can be found at
www.cpradr.org.
As both a global thought leader in conflict
management and as an administrator of international
arbitrations, CPR has a strong interest in ensuring the
continued use, efficiency and effectiveness of
international arbitration.
Specifically, the CPR Institute has members who
engage in arbitration throughout the world; CPR
Dispute Resolution itself is an administrator of
international arbitrations, with about one-quarter of
the 600-plus members of its Panel of Distinguished
Neutrals being located outside of the United States.
Consequently, the question of whether United States
district courts may entertain applications for judicial
assistance in obtaining evidence for presentation in
arbitral proceedings before international tribunals is
one of great relevance to CPR and its constituents.
More specifically, when the district court’s jurisdiction
is unclear in the district where the party in possession
of the sought-after evidence is located, forum shopping
and extended costly litigation over that issue can
unnecessarily delay the arbitration’s merits hearing
and increase costs significantly. This disruption is
contrary to the effective and efficient resolution
arbitration is intended to provide.
As a global thought leader on conflict management,
CPR and its members have great concern that the
current circuit split regarding the availability of 28
U.S.C. § 1782(a) for discovery before international

4
arbitral tribunals undermines CPR’s goal of fostering
efficient and effective resolution of cross-border
business disputes through international commercial
arbitration.
In particular, the uncertainty whether Section 1782
discovery for use in a private international arbitration
is or is not available under United States law itself
leads to extensive, time-consuming and tremendously
expensive litigation over the threshold issue of simply
whether district courts can entertain an application to
obtain evidence from a United States party. The mere
existence of the uncertainty regarding the district
court’s jurisdiction over Section 1782 applications
inevitably imposes unacceptably high costs for
resolving the dispute, frequently embroiling the thirdparties from which the evidence is sought into the
dispute over whether Section 1782 applies.
Given that the Second, Fifth and Seventh Circuits
have decided that Section 1782 does not apply with
respect to international arbitral proceedings while the
Fourth and Sixth Circuits have come to the opposite
conclusion, with additional decisions imminent in both
the Third and Ninth Circuits, the only way for this
conflict to be resolved is for the Supreme Court to take
up this case. CPR therefore urges the Court to
establish clarity on the applicability of Section 1782 to
international arbitration and further urges the Court
to hear the case this term in order to ensure the case
does not become moot.

5
INTRODUCTION
AND SUMMARY OF ARGUMENT
CPR takes no position on the merits of the question
presented by the petition of Servotronics, Inc. for a writ
of certiorari. Rather, CPR’s sole purpose for submitting
this amicus brief is to support the petitioner’s request
that the Court take up the case and grant certiorari so
that the circuit split that now exists can be promptly
resolved.
As set forth in the petitioner’s Question Presented,
there is a clear circuit split on the question of whether
the phrase “foreign or international tribunal” in Section
1782(a) includes private international arbitral
tribunals. The Second, Fifth and Seventh Circuits
have decided the question in the negative while the
Fourth and Sixth Circuits have decided the question in
the affirmative. In fact, the decision of the Seventh
Circuit in this very case conflicts with the decision of
the Fourth Circuit six months earlier in what is
essentially the same case involving the same parties
before the same arbitration tribunal seated in London.
The current existence of opposite rules on whether
district courts have jurisdiction to render assistance
under Section 1782 in gathering evidence for
international arbitral tribunals creates both the
opportunity for blatant forum shopping and the
likelihood of protracted litigation on the threshold
jurisdictional question in each of the seven remaining
regional circuits that have not decided the question.2
2

There are three cases pending in the Third and Ninth Circuits
that have recently been argued addressing the question presented

6
This most certainly creates a compelling reason for this
Court to grant certiorari on this important question of
federal law that has significant implications both for
United States parties and for foreign parties involved
in commercial disputes with United States parties.
There, however, is another important issue relating
to the current certiorari petition. The reason why it
took over twenty years for the question presented here
to make it to the Supreme Court is that the delays
resulting from protracted litigation over the district
court’s jurisdiction for Section 1782 applications can
and frequently do result in the underlying arbitral case
proceeding to hearing and final award before the
Section 1782 court proceedings are complete,
frequently precluding an appeal. Obviously, once an
award in the underlying arbitral proceeding has been
issued, any unresolved Section 1782 proceeding
becomes moot. This is especially significant when the
case is litigated for six or more months before the

herein. Third Circuit: EWE Gasspeicher GmbH v. Halliburton Co.,
No. 20-1830; and In re: Storag Etzel GmbH v. Baker Hughes
Holdings LLC, No. 20-1833 (both argued on December 9, 2020);
and Ninth Circuit: In re: HRC-Hainan Holding Co., LLC, No. 2015371 (argued on September 14, 2020). Although these cases could
be decided at any time, it is certainly plausible that one or both of
these courts of appeals would defer issuing its decision until after
this Court decides whether to grant certiorari and, if it does so,
until after the court issues its decision on the merits. (Third
Circuit Judge McKee suggested during the consolidated oral
arguments for the EWE and Storag cases held on December 9,
2020 that deferring a decision pending the Supreme Court’s
decision in the Servotronics case might be the most appropriate
course for that court to take. See, Doc. 68, Third Circuit Case No.
20-1830, Tr. at pp. 4-5.)

7
district court and then appealed to a circuit court of
appeals which typically will take another six or more
months for a decision. Of the ten Section 1782 cases
involving an international arbitration decided by
circuit courts of appeal or still pending before them,
listed below, the average length from the initial filing
of the Section 1782 application until decision on the
application (or to date if still pending) was 16.8
months.3
The arbitration hearing on merits of Rolls-Royce’s
claims against Servotronics in the case before the
London arbitral tribunal underlying this case is

3

See, Second Circuit: National Broadcasting Co., Inc. v. Bear
Stearns & Co., Inc., 165 F.3d 184 (2d Cir. 1999) (18 months), and
In re: Guo v. Deutsche Bank Securities Inc., 965 F.3d 96 (2d Cir.
2020) (19 months); Third Circuit: EWE Gasspeicher GmbH, supra.
(filed April 26, 2019, and ongoing), and In re Storag Etzel GmbH,
supra. (filed: August 29, 2019, and ongoing); Fourth Circuit:
Servotronics Inc. v. The Boeing Co., 954 F.3d 209 (4th Cir. 2020)
(filed October 26, 2018 and ongoing); Fifth Circuit: Republic of
Kazakhstan v. Biedermann Int’l., 68 F.3d 880 (5th Cir. 1999) (5
months), and El Paso Corp. v. La Comision Ejecutiva
Hidroelectrica Del Rio Lempa, 341 Fed. Appx. 31 (5th Cir. 2009)
(13 months); Sixth Circuit: Abdul Latif Jameel Trans. Co. Ltd. V.
FedEx Corp., 939 F. 3d 710 (6th Cir. 2019) (16 months); Seventh
Circuit: Servotronics, Inc. v. Rolls-Royce PLC, 975 F.3d 689 (7th
Cir. 2020) (filed: October 26, 2018, and ongoing); Ninth Circuit:
HRC-Hainan Holding Co., LLC v. Hu, supra., (filed November 13,
2019 and ongoing); and Eleventh Circuit: In re Consorcio
Ecuatoriano de Telecomunicaciones S.A. v. JAS Forwarding (USA),
Inc., 685 F.3d 987 (11th Cir. 2012), vacated and superseded by 747
F.3d 1262 (11th Cir. 2014) (23 months).

8
currently scheduled to begin on May 10, 2021.4 While
it is certainly unrealistic to expect that this Court could
grant certiorari and resolve the case in petitioner’s
favor by May 2021, the arbitral hearing will certainly
take a number of weeks with issuance of any award
many weeks later. In other words, even if the current
hearing schedule is retained, the arbitration
proceedings will almost certainly remain extant well
through the end of this Court’s current term. However,
unless the hearing is postponed for a significant
number of months, it is also quite likely that the
underlying arbitration proceedings will conclude and a
final award issued before this Court decides this case
if its argument is set over until the next term.
Hence, unless set for argument this term, CPR is
greatly concerned that this Section 1782 proceeding is
at risk of becoming moot prior to the time this case
would be decided by this Court. Importantly, there
also is the potential risk that any future case
presenting the current question coming before this
Court, including the three cases having been argued
before the Third and Ninth Circuits, could also become
moot either before an appeal to the Supreme Court

4

This date is set forth at ¶ 27 the Amended Order for Directions,
Dated 10 July 2020, issued by the arbitral tribunal in London. A
copy of that order was appended to a joint Supplemental
Memorandum of Respondents Rolls-Royce and Boeing filed on July
21, 2020 in Servotronics’ ongoing Section 1782 case pending before
the District of South Carolina, Case No. 2:18-mc-00364-DCN at
Doc. No. 32-3, p. 4 of 4 (on remand from the Fourth Circuit).

9
could be lodged or, if appealed, while such case remains
pending before the Court.5

5

The Second Circuit decided the Guo case on July 8, 2020.
Evidently because the Chinese-seated arbitration underlying the
Guo case proceeded with its scheduled hearing before a China
International Economic and Trade Arbitration Commission
(CIETAC) tribunal two weeks later on July 21, 2020, no certiorari
petition was filed foreclosing any potential review in that case by
this Court. With respect to the Third Circuit cases, the arbitration
hearing in the EWE case before the German Arbitration Institute
(“DIS”) tribunal is scheduled to begin in May 2021 according to
oral submissions of counsel at argument on December 9, 2020 in
EWE Gasspeicher and In re: Storag Etzel (See, Tr. of Argument at
p. 5, Doc. 68 in the EWE case and Doc. 54 in the Storag case.) In
the Storag case, for which the underlying arbitration is also
pending before a DIS tribunal in Germany, the case record does
not indicate when the final hearing will be held. However,
according to correspondence from applicant’s counsel to the Third
Circuit clerk dated October 30, 2020, the tribunal in the Storag
case issued a partial award against the applicant on October 17,
2020. And, according to a second letter to the clerk, Storag’s
counsel informed the Third Circuit that it will be filing an
annulment proceeding in a German state court this month. See,
Docs. 46 and 48 in Storag case. Similarly, according to the
applicant’s counsel, the arbitration hearing in the case before the
Ninth Circuit, HRC-Hainan Holding Co., LLC v. Hu, has already
been held by a CIETAC tribunal in China and evidently remains
as a viable case only by virtue of the parties’ stipulation and the
continuing pendency of a proceeding related to the arbitration
before a Chinese court.

10
ARGUMENT
I. The Sixth Circuit’s September 2019 decision
creating the circuit split on the question of
whether Section 1782(a) allows district courts
to render assistance for private international
arbitral tribunals presents a highly important
issue of federal law that can only be resolved
by the Supreme Court.
In Intel Corp. v. Advanced Micro Devices, Inc., 542
U.S. 241 (2004), this Court addressed the question of
whether the Directorate-General for Competition of the
Commission of the European Communities was a
“tribunal” within the meaning of the phrase “foreign or
international tribunal” in Section 1782(a). Citing to
the law review article by the reporter to the
Congressionally established Commission on
International Rules of Judicial Procedure that had
drafted the 1964 amendments to Section 1782(a),
Justice Ginsburg’s opinion included the following
quotation from Professor Smit’s article that stated
“[t]he term ‘tribunal’ . . . includes investigating
magistrates, administrative and arbitral tribunals, and
quasi-judicial agencies, as well as conventional court
civil, commercial, criminal, and administrative courts.”6
542 U.S. at 258. The Intel Court went on to hold that
the Directorate-General, which is not a court, would
nonetheless properly be considered to be a “tribunal”
within the meaning of Section 1782(a).

6

International Litigation under the United States Code, 65
Columbia L. Rev. 1015, 1026-27, n. 71 (1965), Prof. Hans Smit.

11
Notwithstanding the earlier decisions in National
Broadcasting Co., Inc. v. Bear Stearns & Co., 165 F.3d
184 (2d Cir. 1999), and Republic of Kazakhstan v.
Biedermann Int’l., 168 F.3d 880 (5th Cir. 1999), which
cases had held that Section 1782’s reference to
“tribunal” did not include private international
tribunals, some lower federal courts began interpreting
Intel as indicating that private international tribunals
should be considered as “tribunals” within the meaning
of the term in Section 1782(a). See, e.g., In re Roz
Trading Ltd., 469 F. Supp. 2d 1221 (N.D. Ga. 2006);
and In re Hallmark Capital Corp., 534 F. Supp. 2d 951
(D. Minn. 2007). Then, in 2012, the issue reached the
Eleventh Circuit in In re Consorcio Ecuatoriano de
Telecomunicaciones S.A. v. JAS Forwarding (USA),
Inc., 685 F.3d 987 (11th Cir. 2012), in which the
appeals court affirmed the Southern District of Florida
allowing discovery under Section 1782(a) for obtaining
evidence for private arbitral tribunals.
However, that decision was short lived because the
Eleventh Circuit sua sponte (and without explanation)
withdrew its 2012 opinion 18 months later and issued
a new decision that completely changed the substance
of its earlier decision. In its new opinion, at 747 F.3d
1262 (11th Cir. 2014), the Eleventh Circuit still
affirmed the district court but based its affirmance
entirely on the alternative ground of there being the
expectation that formal civil and criminal proceedings
in Ecuador were “reasonably contemplated,” saying
nothing about the existence of the private international
arbitration upon which its earlier decision was based.
Consequently, what had been a circuit split with the
Second and Fifth Circuits disappeared.

12
It was not until 2019 that the next case reached a
circuit court of appeals. In May 2018, an application
under Section 1782(a) was filed in the Western District
of Tennessee in Memphis by a Saudi party to a private
international arbitration pending in Dubai seeking
discovery from FedEx Corp. Upon denial of the
application by the district court, the Saudi party, Abdul
Latif Jameel Transportation Company, Limited
(“ALJ”), appealed to the Sixth Circuit, which reversed.
Abdul Latif Jameel Trans. Co. v. FedEx Corp., 939 F.3d
710 (6th Cir. 2019). Encouraged by the Sixth Circuit’s
detailed analysis of the meaning of the statute’s term
“tribunal,” more applications under Section 1782
seeking discovery for arbitration cases were being filed,
albeit with mixed results.7
In addition, the
international arbitration community was flooded with
scores of comments in articles, legal blogs and law firm
“alerts” commenting on the circuit split and the need
for Supreme Court review.8
Two articles were
7

A Westlaw search for district court decisions for cases brought
under Section 1782 for discovery in cases based on an underlying
private international arbitration shows that there were at least 14
new cases filed after the Sixth Circuit’s decision. This is in
comparison to a total of some 65 cases decided in district courts
prior to September 19, 2019, the date the Sixth Circuit issued its
decision in the ALJ case.
8

See, e.g., Using the U.S. Courts to Obtain Discovery Here and
Abroad for Foreign and International Proceedings, Frederick
Acomb, 99 Mich. B.J. 32 (Sept. 2020); Practicalities and
Commercial Realities: § 1782 and its Applications to Private
Commercial Arbitration, Jenifer Sandlin, 44 J. Legal Prof. 223
(Spring 2020); Compelling U.S. Discovery in International
Franchise Arbitrations: The (F)utility of Section 1782 Applications,
Matthew J. Soroky, 39 Franchise L. J. 185 (Fall 2019); Circuit

13
published by the undersigned in CPR’s Alternatives to
the High Cost of Litigation newsletter.9
The Sixth Circuit’s decision was soon followed by
the Fourth Circuit in the first Servotronics case,
decided on March 30, 2020. Servotronics, Inc. v. The
Boeing Co., 954 F.3d 209 (4th Cir. 2020). The Fourth
Circuit’s decision agreed with the Sixth Circuit,
widening the circuit split with the Second and Fifth
Circuits’ respective 1999 decisions in NBC and
Biedermann cases. There was some commentary
suggesting that Guo case which was then before the
Second Circuit and had been argued on February 28,
2020 might follow two Southern District of New York
decisions finding that Intel, which had been
subsequently decided, had implicitly overruled NBC,
leading the Second Circuit to fall in line with Fourth

Split on 28 U.S.C. § 1782: Are U.S. Courts Trending Against
Discovery for Foreign Private Arbitrations?, Dana MacGrath,
Nilufar Hossan, Kluwer Arbitration Blog, Oct. 4, 2020; and Second
Circuit Rules in Hanwei Guo that Section 1782 Does Not Apply to
Private Commercial Arbitrations, Dana C. MacGrath, ICC Dispute
Resolution Bulletin, 2020, Issue 3, Global Developments.
9

Will the Supreme Court Take Up Allowing Discovery under
Section 1782 for Private International Arbitrations?, 38
Alternatives to the High Cost of Litigation 103, July-Aug. 2020;
and Update: The Section 1782 Conflict Intensifies as the
International Arbitration Issues Goes to the Supreme Court, 38
Alternatives to High Cost Litigation 125, Sept. 2020, John B.
Pinney

14
and Sixth Circuits.10 However, that thought ended
when the Second Circuit issued is decision reaffirming
NBC on July 9, 2020. In re Guo v. Deutsche Bank
Securities Inc., 965 F.3d 96 (2d Cir. 2020). The Guo
decision also ended any hope that a consensus might be
reached regarding the applicability of Section 1782(a)
to private international arbitration without Supreme
Court review.11
This journey of jurisprudence through the various
circuits not only reflects the need for clarity on the
question but underscores the resources that are being
invested, quite apart from the resolution of the
underlying legal dispute, by parties in Section 1782
litigation. As noted above, almost 17 months pass on
average between filing an application for Section 1782
discovery until the matter is resolved (or to date if still
pending). While it is hard to tell how much of this time
is spent on the threshold question of whether courts
might order discovery in aid of private arbitral tribunal
processes – as opposed to on the question of what
discovery may be allowed, no doubt a significant
portion of the time is being invested litigating the
jurisdictional issue. And, this time unquestionably
could better be invested in the dispute’s resolution or in
other productive matters.

10

In re Children’s Invest. Fund Found. (UK), 363 F. Supp. 3d 361,
370-71 (S.D.N.Y. 2019); and In re Kleimar N.V., 220 F. Supp. 3d
517, 521-22 (S.D.N.Y. 2016).
11

Neither losing party in either the Fourth Circuit’s Servotronics
decision or the Second Circuit’s Guo filed for certiorari in this
Court.

15
That the legal community is eager for resolution of
the threshold question is an understatement. There
also have been four law review articles written
addressing the topic, including Yanbai Andrea Wang,
Exporting American Discovery, 87 U. Chi. L. R. 2089
(Nov. 2020); Case Note; Statutory Interpretation –
Textualism – Sixth Circuit Holds That Private
Commercial Arbitration is a Foreign or International
Tribunal – In re: Application to Obtain Discovery for
Use in Foreign Proceedings, 939 F.3d 710 (6th Cir.
2019), 133 Harv. L. Rev. 2627 (June 2020); Comment,
Authorization of Discovery in International Commercial
Arbitration: Demystifying the Sixth Circuit’s Statutory
Construction of 28 U.S.C. § 1782(a), Jason Arendt, 9
Am. Univ. Bus. L. Rev. 417 (2020); and Alejandro A.
Nava Cuenca, Note, Debunking the Myths:
International Commercial Arbitration and Section
1782(a), 45 Yale J. Int’l. L. (forthcoming Jan. 2021). In
addition, an entire chapter of the recently issued
treatise on Section 1782 practice is devoted to the
applicability of Section 1782 to private international
arbitrations.12
As perhaps the most interesting showing of how
important those in the international arbitration
community view the issue was the inclusion of a mock
Supreme Court argument on Section 1782’s
applicability for private international arbitrations
sponsored by the Fordham University School of Law

12

Obtaining Evidence for Use in International Tribunals under 28
U.S.C. § 1782, Edward M Mullins and Lawrence W. Newman,
editors, JurisNet, LLC (2020), Chapter 8, Use of Section 1782 in
Aid of Arbitration, David Zaslowsky and Kristina Fridman.

16
held as part of this fall’s “New York Arbitration Week.”
On November 20, 2020, there was a mock argument
before “Supreme Court Justices” Paul D. Clement
(former Solicitor General), Nicole A. Saharsky (former
Assistant Solicitor General), and Fordham Prof.
Pamela Bookman that was broadcast worldwide over
the internet on a Zoom platform, followed by a panel
discussion of the issue.13
The point is that it cannot be overstated that the
international arbitration community is anxiously
awaiting the Supreme Court’s definitive resolution of
this important issue of federal law that has significant
implications globally for the resolution of disputes
arising from cross-border business transactions.
The present case in which Servotronics has
petitioned for certiorari comes to this Court from the
Seventh Circuit’s decision on September 22, 2020,
rejecting the Fourth and Sixth Circuits’ decisions in
Servotronics and ALJ and following the decisions in
NBC, Biedermann and Guo. Servotronics, Inc. v. RollsRoyce, PLC, 975 F.3d 689 (7th Cir. 2020). The effect of
the Seventh Circuit’s decision was not only to widen
further the circuit split and uncertainty in the seven
circuits that have yet to address this issue, but also to
create a direct circuit split in the very same case.

13

Available at https://nyarbitrationweek.com/fordham-conferenceon-international-arbitration-and-mediation/

17
II. The Court Should Set the Case for Argument
This Term to Avoid the Likelihood that It Will
Become Moot Prior to Decision.
The current petition by Servotronics is the first case
involving Section 1782(a) for which review by the Court
has been sought since Intel in 2003.14 The apparent
reason for this is quite simple. By definition, cases
brought under Section 1782 are collateral to an
underlying case, whether the underlying case is a
litigation matter before a foreign court, a criminal
matter before an investigating magistrate or an
arbitration before a private international arbitral
tribunal. The purpose for which any Section 1782(a)
application is made is to obtain evidence for use in the
underlying case. That means, as a practical matter,
that there commonly is an established case schedule for
gathering evidence that may or may not be flexible
constraining the amount of time available to obtain the
desired evidence prior to commencement of the merits
hearing or other final determination of the matter.
Moreover, in almost every case, the applicant will have
a limited budget that it can reasonably devote to
litigating over the United States court’s jurisdiction for
compelling production of the expected evidence it is
seeking for use in the foreign proceeding. Each of these
factors make it the rare case that as a practical matter
can be appealed beyond the district court to a circuit

14

Prior to Intel, there was only one prior Section 1782 case for
which a party sought certiorari. That case was United Tech.
Intern., v. Malev Hungarian Airlines, 506 U.S. 861 (1992). The
Malev case involved the plaintiff in a Hungarian lawsuit seeking
discovery from a United States-based jet engine supplier.

18
court of appeals, let alone that can seek further review
by this Court.
Consequently, it is not only important that this
Court grant Servotronics’ petition, but that it also
schedule argument this term in order to avoid the case
becoming moot prior to this Court’s issuance of its
decision. The underlying arbitration case brought by
Rolls-Royce against Servotronics is set for final hearing
commencing on May 10, 2021.15 While the conduct of
the arbitration, including the scheduling of the final
hearing, is within the sole discretion of the London
arbitral tribunal, CPR submits there is a high
likelihood that this case will become moot before this
Court issues its decision if argument is held over until
the October 2021 term.
Given the paucity of other Section 1782 cases that
can even make it to an appellate court and also where
the losing party in the court of appeals can then
petition for certiorari, it is certainly unclear when
another case might make it to the Supreme Court.
Hence, the uncertainty resulting from the current
circuit split could well remain unresolved for many
years to come. To illustrate, of the four recent cases
decided by the Second, Fourth, Sixth and Seventh
Circuits, only the Seventh Circuit’s Servotronics has
been appealed to this Court.16 As also explained at
15

16

See, footnote 4, supra.

Second Circuit: the CIETAC arbitration hearing commenced 13
days after issuance of the decision in the Guo case; Fourth Circuit:
even though Boeing represented to both the Fourth Circuit and the
South Carolina district court that it would be filing for certiorari,

19
note 5 above, there is no assurance that any of three
cases that have been argued in the Third and Ninth
Circuits17 will ever be appealed to this Court.
Moreover, for the reasons stated, any of those three
cases could easily become moot by the time the courts
of appeals issue their respective decisions or the losing
party might simply decide not to seek certiorari for
economic or timing reasons, making it uncertain
whether any of the other cases in the current decisional
pipeline will ever be appealed to the Supreme Court.
And finally, even if one or more of these cases is
appealed to this Court, there can be no assurance that
the case will not become moot prior to this Court’s
decision on the merits.18

the time for filing expired on August 27, 2020; Sixth Circuit: the
ALJ v. FedEx case was promptly settled on remand to the district
court.
17

The German arbitrations underlying the EWE and Storag cases
pending before the Third Circuit may well be completely resolved
this year, and the final hearing CIETAC arbitration in the Ninth
Circuit’s case, HRC-Hainan Holding Co., LLC v. Hu, has already
been held.
18

It is important to note that cases based on Section 1782 do not
appear to fall within the doctrine on the exception to mootness
based on cases that repeat but evade review. Under United States.
v. Sanchez-Gomez, 138 S.Ct. 1532, 1540 (2018), that doctrine was
most recently explained as follows: “(1) the challenged action is in
its duration too short to be fully litigated prior to its cessation or
expiration, and (2) there will be a reasonable expectation that the
same complaining party will be subjected to the same action
again.” Even if this or a related exception to mootness doctrine
might apply here, the significant risk that the underlying

20
CONCLUSION
As a leading voice supporting effective and efficient
methods for resolution of legal conflict for more than 40
years, CPR urges the Court to grant Servotronics’
petition for certiorari to resolve the current circuit split
that can only be accomplished by this Court. Given the
intensity of interest in the international arbitration
community and the indisputable need for avoidance of
unnecessary and costly litigation over the jurisdiction
of district courts, this Court must put to rest the
question presented by taking up this case and deciding
this case on its merits.
Moreover, and equally important, CPR urges that
this case be set for argument this term. Even if
certiorari is granted, setting argument over to the
October 2021 term creates an unacceptably high risk
that the arbitration tribunal in London will proceed
with its final hearing and issue its award in the
arbitration underlying this case prior to the end of 2021
so as to moot this case before any decision is rendered.

Dated: January 5, 2021

arbitration case will be finally resolved prior to issuance of this
Court’s merits decision counsels in favor of resolution this term on
this important issue of federal law.

21
Respectfully submitted,
John B. Pinney
Counsel of Record
Roula Allouch
GRAYDON HEAD & RITCHEY LLP
312 Walnut Street, Ste. 1800
Cincinnati, OH 45202
(513) 629-2730
jpinney@graydon.law
Counsel for Amicus Curiae

